                                 March 31, 2003

                                 DONNA M. PEAK
                                 VICE PRESIDENT, FINANCE, CONTROLLER

                                 RUDOLPH K. UMSCHEID
                                 VICE PRESIDENT, FACILITIES

                                 SUBJECT:	 Management Advisory – Impact of
                                           Freezing Capital Construction Projects
                                           (Report Number CA-MA-03-007)

                                 This report presents the results of our self-initiated review of
                                 the impact of freezing capital construction projects (Project
                                 Number 02XR001CA000). The objective of our review was
                                 to determine the effect of the capital freeze on the Postal
                                 Service’s ability to maintain, preserve, and expand buildings
                                 as needed in an economical and effective manner.

Results in Brief 	               The Postal Service has generally managed the restraints
                                 imposed by the capital freeze by implementing several
                                 major initiatives to maintain, preserve, and expand facilities
                                 in the short-term.1 However, we are concerned that long-
                                 term continuation of the capital freeze will contribute to
                                 deteriorating Postal Service facilities, difficulty in providing
                                 needed space for high growth areas, incurring rising
                                 construction costs and delays in upgrading facilities for
                                 handicapped accessibility.

                                 We recommended Postal Service management continue to
                                 resolve the specific issues identified in this report and as
                                 funding becomes available reprioritize projects regarding
                                 life/safety, emergencies, and legal requirements.
                                 Management agreed with the recommendation and has
                                 taken or planned corrective actions that are responsive to
                                 our recommendation.

1
 Constraints on facilities-related spending involved both capital and expense funding. This management advisory
primarily addresses capital funding.




                                             Restricted Information
Impact of Freezing Capital Construction Projects                                                 CA-MA-03-007




                                Management’s comments, in their entirety, are included in
                                the appendix of this report.

Background                      Capital projects are necessary to construct new facilities
                                and maintain over 37,000 existing facilities. Because of
                                deteriorating financial conditions during the past several
                                years, the Postal Service reduced capital commitments for
                                facilities projects from $1.8 billion in fiscal year (FY) 1998 to
                                $244 million in FY 2002. On February 8, 2001, funding for
                                capital construction projects was suspended indefinitely.
                                However, funding for capital construction projects allowed
                                for exceptions for emergency and safety issues. In addition,
                                when approved by headquarters on a case-by-case basis,
                                funding has been granted for buildouts on leases and
                                capital improvements.

Objective, Scope, and           The objective of our review was to determine the effect
Methodology                     of the capital freeze on the Postal Service’s ability to
                                maintain, preserve, and expand buildings as needed in an
                                economical and effective manner. We conducted a review
                                at three districts in the Western Area (Colorado/Wyoming,
                                Arizona, and Mid-America).2 We selected the Western Area
                                because it had the highest number of planned construction
                                projects before the capital freeze and contained several
                                high-growth states.

                                To accomplish our objective, we quantified financial impacts
                                of repairing versus replacing, canceling, and delaying
                                projects from cash flow information in Decision Analysis
                                Reports related to the capital freeze. We also reviewed
                                nonfinancial impacts including overcrowding, safety, and
                                handicapped accessibility. We interviewed Postal Service
                                management at headquarters, the Western Area, and the
                                three districts. We conducted on-site observations of
                                facilities where projects were delayed because of the capital
                                freeze, and reviewed applicable Postal Service policies and
                                procedures.3

                                This review was conducted from January 2002 through
                                March 2003 in accordance with the President’s Council on
2
 Effective July 2002, Arizona became part of the Pacific Area.
3
 Postal Service Handbook F-66, General Investment Policies and Procedures, April 1999, Postal Service 

Handbook F-66A, Investment Policies and Procedures Major Facilities, March 1999, Postal Service Handbook F-66c, 

Field Investment Policies and Procedures, March 1999, and all policy memorandums related to the capital freeze. 





                                                       2
                                            Restricted Information
Impact of Freezing Capital Construction Projects 	                                     CA-MA-03-007



                                Integrity and Efficiency, Quality Standards for Inspections.
                                We discussed our conclusions and observations with
                                appropriate management officials and included their
                                comments, where appropriate.

Prior Audit Coverage            The General Accounting Office (GAO) acknowledged long-
                                term concerns in its February 2002 report, U.S. Postal
                                Service: Deteriorating Financial Outlook Increases Need for
                                Transformation (Report Number GAO-02-355). The GAO
                                concluded that limitations on capital investments might have
                                some detrimental effects, such as deterioration of existing
                                physical infrastructure, operational impediments resulting
                                from delays in repairing deteriorating facilities and
                                expansions to cover new delivery points, and higher costs of
                                future projects. The GAO recommended the Postal Service
                                Board of Governors and the postmaster general develop
                                and implement strategies to include: (1) actions that the
                                Postal Service can take within its current authority,
                                (2) specific congressional actions that would enable the
                                Postal Service to take a number of incremental steps to
                                address its growing financial and operational challenges,
                                and (3) a process to address a range of comprehensive
                                legislative reforms that will be needed to address key
                                unresolved transformation issues.

Capital Freeze                  The Postal Service has generally managed the restraints
Initiatives                     imposed by the capital freeze by implementing several
Implemented but                 major initiatives to maintain, preserve, and expand facilities
Long-Term Concerns              in the short-term. However, we are concerned that long-
Remain                          term continuation of the capital freeze will contribute to
                                deteriorating Postal Service facilities; difficulty in providing
                                needed space for high growth areas; incurring rising
                                construction costs; and delays in upgrading facilities for
                                handicapped accessibility.

Capital Freeze                  The Postal Service has implemented several major
Initiatives                     initiatives to help maintain, preserve, and expand facilities
                                since the inception of the capital freeze:

                                    • 	 Postal Service management implemented a
                                        nationwide process to allow exceptions for projects
                                        that meet criteria for life/safety, emergencies, and
                                        legal requirements. From the beginning of the capital
                                        freeze on February 8, 2001, and continuing through
                                        June 14, 2002, the Postal Service committed



                                                      3
                                           Restricted Information
Impact of Freezing Capital Construction Projects 	                                    CA-MA-03-007



                                        $293 million in capital funds for construction projects
                                        that met the requirements for these exceptions.
                                        The Office of Inspector General (OIG) reviewed
                                        297 exception projects and found proper advance
                                        approval and compliance with all but 6 exception
                                        requests.

                                    • 	 Facilities personnel at headquarters closely
                                        monitored the expenditures of capital construction
                                        funds by requesting that area officials determine their
                                        highest priority construction projects. Area officials
                                        nationwide determined the highest priority projects
                                        based on the following categories:

                                                	 Replacement facilities that had been leased
                                                but not renovated for Postal Service use.

                                                	 Expansionspace that had been leased but not
                                                renovated for Postal Service use.

                                                	 Sites
                                                      that had been leased for modular
                                                buildings, but the modular building had not
                                                been installed.

                                                	 Existing
                                                         buildings that had been purchased
                                                but not renovated for Postal Service use.

                                        As a result, management advised the Board of
                                        Governors of the need to proceed with 42 projects
                                        valued at $28.4 million that were needed for buildouts
                                        of purchased or leased space. In addition, area
                                        officials identified and received funding for
                                        314 building improvement projects valued at
                                        $56 million. These projects included roof
                                        replacements, new heating and air conditioning
                                        systems, and lead paint removal.

                                    • 	 District level management in the Western Area used
                                        modular trailers and consolidated or moved routes to
                                        alleviate overcrowding.




                                                      4
                                           Restricted Information
Impact of Freezing Capital Construction Projects 	                                                CA-MA-03-007




                                 For example, a modular trailer was installed at the
                                 Queen Creek, Arizona, post office to provide more
                                 working space.




                                 In addition, on February 19, 2002, 40 routes were moved
                                 out of the Aurora Gateway, Colorado, post office to alleviate
                                 overcrowding.

Long Term Concerns	              Although Postal Service management has generally been
                                 able to maintain, preserve, and expand some facilities
                                 during the capital freeze, we found long-term concerns with
                                 overcrowding, safety, repairing versus replacing projects,
                                 canceling projects, delaying projects, incurring rising
                                 construction costs, and upgrading facilities for handicapped
                                 accessibility. Specifically:

                                 We observed seven overcrowded facilities,4 including:




4
 Colorado Springs, Colorado; Larkspur, Colorado; Windsor, Colorado; Scottsdale, Arizona; Tucson, Arizona;
Louisburg, Kansas; and Cameron, Missouri.




                                                        5
                                             Restricted Information
Impact of Freezing Capital Construction Projects                                   CA-MA-03-007




                                    A crowded post office in Scottsdale, Arizona (pictured
                                    below) where packages were sorted and temporarily
                                    stored in the parking lot exposing them to potentially
                                    unfavorable weather conditions.




                                   A crowded facility in Larkspur, Colorado, (pictured below)
                                   where employees unloaded morning mail in an
                                   unenclosed area, exposing them to extreme weather
                                   conditions during the winter.




                                                     6
                                          Restricted Information
Impact of Freezing Capital Construction Projects                                                   CA-MA-03-007




                                 We observed seven facilities with safety concerns in the
                                 Western Area.5 For example, as pictured below, we
                                 observed:

                                     A leaning floor in Wappepello, Missouri.




                                     A floor being supported by a wooden plank to handle the
                                     weight of a safe in Qulin, Missouri.




5
 Bellvue, Colorado; Colorado Springs, Colorado; Rio Salado, Arizona; Phoenix, Arizona; Wappepello, Missouri;
Qulin, Missouri; and Kansas City, Missouri.




                                                        7
                                             Restricted Information
Impact of Freezing Capital Construction Projects                                         CA-MA-03-007




                                        Shifting slabs on outside stairs in Colorado Springs,
                                        Colorado.




                                        Leaning handicapped rail in Bellvue, Colorado.




                                    For two of the safety issues we identified, Postal Service
                                    management completed corrective actions. For the other
                                    five issues, actions were in process.

                                    The longer the capital freeze continues, the greater the risk
                                    that overcrowding and safety issues increase and become
                                    more severe. Postal Service forecasts show that Western
                                    Area delivery points should increase by 340,000 in FY 2003
                                    because of high growth in the area. Also, according to the
                                    Census Bureau, the Western Area contained the five fastest
                                    growing states from 1990 to 2000:6



6
    Effective July 2002, both Arizona and Nevada became part of the Pacific Area.




                                                           8
                                                Restricted Information
Impact of Freezing Capital Construction Projects 	                                     CA-MA-03-007




                                                Nevada, 66 percent growth.

                                                Arizona, 40 percent growth.

                                                Colorado, 31 percent growth.

                                                Utah, 30 percent growth.

                                                Idaho, 29 percent growth 


                                    • 	 One district reduced costs by completing repair
                                        projects or canceling projects instead of completing
                                        the full scope of the project. During the capital
                                        freeze, six replacement projects valued at
                                        $1.1 million were converted to repair projects valued
                                        at $63,152. For example, roofs that needed
                                        replacement were patched and heating, air
                                        conditioning, and ventilation systems needing
                                        replacement were repaired. In addition, heating, air
                                        conditioning, and ventilation replacement projects
                                        were canceled in Branson, Missouri, and Pueblo,
                                        Colorado. Partial repairs may soon become
                                        insufficient and the Postal Service may need to fund
                                        more expensive replacement projects. In addition,
                                        when the capital freeze was implemented certain
                                        facilities service offices and districts canceled capital
                                        construction projects in the planning or design phase.
                                        For example, the Denver Facilities Service Office
                                        canceled over $560,000 in planning and design costs
                                        because of the capital freeze. When these projects
                                        are restarted, the plans and designs could be out of
                                        date, and additional expenditures might be required.

                                    • 	 We found that the Postal Service has not incurred
                                        additional costs by delaying construction of new
                                        facilities during the capital freeze. We analyzed the
                                        10-year cash flow data in 56 approved Decision
                                        Analysis Reports for construction projects that were
                                        not started because of the capital freeze. We based
                                        our calculations on construction being completed in
                                        FY 2003 at a time when borrowing rates were
                                        decreasing. We are concerned that if construction
                                        projects delayed because of the capital freeze are
                                        not completed during FY 2003, borrowing rates will
                                        rise. Rising borrowing rates combined with the
                                        escalation of construction costs may cause the
                                        Postal Service to incur higher costs when these
                                        projects are restarted.




                                                      9
                                           Restricted Information
Impact of Freezing Capital Construction Projects 	                                   CA-MA-03-007



                                    • 	 Several districts delayed completion of handicapped
                                        accessibility projects. For example, the Mid-America
                                        District planned to upgrade three government-owned
                                        facilities for handicapped accessibility; however,
                                        these projects were not started because of the capital
                                        freeze. Customers with special needs at these
                                        locations could be inconvenienced.

Recommendation 	                We recommend the vice president, Facilities, and the
                                vice president, Finance, controller:

                                        1. Continue to resolve the specific issues identified
                                           in this report and as funding becomes available
                                           reprioritize projects regarding life/safety,
                                           emergencies, and legal requirements.

Management’s                    Management agreed with the recommendation stating that
Comments                        on an ongoing basis they continue to emphasize the need to
                                maintain assets and address life and safety issues,
                                emergencies, and legal requirements. They have also
                                expanded the criteria for facilities-related spending to
                                include asset maintenance, areas of high growth, and
                                significant space deficiencies. Finally, they have taken
                                actions to ensure that available funds are directed towards
                                the highest priority projects nationwide, and will continue to
                                adjust spending criteria as necessary to maintain the Postal
                                Service infrastructure

                                Management did not address actions taken to resolve the
                                specific issues identified in this report. However, we are
                                actively pursuing resolution of these items with Postal
                                Service management.

                                Management also provided clarifications to statements
                                made in this report regarding capital and expense funding,
                                Board of Governors approvals, and realignment of Postal
                                Service areas.

Evaluation of                   Management’s comments are responsive to our
Management’s                    recommendation, and actions taken or planned should
Comments                        correct the issues identified in the report. We acknowledge
                                the clarifications management provided and have revised
                                statements as necessary.




                                                     10
                                           Restricted Information
Impact of Freezing Capital Construction Projects 	                                 CA-MA-03-007



                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions or
                               need additional information, please contact Lorie Siewert,
                               director, Contracts and Facilities, at (651) 855-5856 or me at
                               (703) 248-2300.



                                John M. Seeba
                                Assistant Inspector General
                                 for Audit

                                Attachment

                                cc: 	Richard J. Strasser, Jr.
                                    Sylvester Black
                                    Susan M. Duchek




                                                     11
                                           Restricted Information
Impact of Freezing Capital Construction Projects                   CA-MA-03-007



                     APPENDIX. MANAGEMENT’S COMMENTS




                                                    12
                                          Restricted Information
Impact of Freezing Capital Construction Projects                   CA-MA-03-007




                                                    13
                                          Restricted Information
